HHS/OIG-Audit-"State of Georgia's Efforts to Account for and Monitor Sub-recipients' Use of Public Health Preparedness and Response for Bioterrorism Program Funds"(A-04-03-01011)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"State of Georgia's Efforts to Account for and Monitor Sub-recipients' Use of Public Health Preparedness and Response
for Bioterrorism Program Funds," (A-04-03-01011)
November 12, 2003
Complete Text of Report is available
in PDF format (384 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the Georgia Department of Human Resources (Georgia) generally accounted for program
funds ($27.1 million received as of April 30, 2003 for the 4-year period ending August 30, 2003) in accordance with the
terms and conditions of the cooperative agreement with the Centers for Disease Control and Prevention (CDC) and applicable
departmental regulations and guidelines.  Specifically, Georgia recorded, summarized and reported transactions by
specific focus area.  When Georgia contracts with sub-recipients, it has monitoring procedures in place.  In
addition, Georgia is developing a site visit component.  Further, Georgia officials indicated that CDC funding had
not been used to supplant programs previously funded by other organizational sources.  We recommended Georgia implement
sub-recipient monitoring when contracts are awarded, and address problem areas, as they are identified.  Georgia concurred
with our findings and recommendation and is taking corrective actions to improve its bioterrorism grant program.